No.

^5796

FILED
SEP ! 3 2021
OFFICE OF THE CLERK
SUPREME COURT. IIS

In The
SUPREME COURT OF THE UNTIED STATES

LARRY E. CLARK, -—PETITIONER
VERSUS
STATE OF LOUISIANA, DEPARTMENT OF TRANSPORTATION
AND DEVELOPMENT —RESPONDENT

On Petition for Writ of Certiorari
to the Louisiana Second Circuit Court of Appeal

SUBMITTED BY:

The Petitioner
LARRY E. CLARK, PRO SE
P. O. BOX 76752
ATLANTA, GA 30358
PHONE: 678-754-7324
Email: cl ark9853@hotmail. com

QUESTION PRESENTED

A State Law Is At Issue In These Condemnation Cases On Being Repugnant
To The U. S. Constitution; But If No Final Appealable Judgment Has
Been Issued That Can Be Reviewed By The State Appellate Court Or By
This Court, Does: 28 U. S. C. Section 1257 (a) Mandate For This Court To
Consider The Jurisdiction Of This Court And The Jurisdiction Of The State
Appellate Court; And If No Jurisdiction Exists, Must The State Appellate
Court Be reversed, Not On The Merits, But On The Lack Of Jurisdiction?

1.

List of Parties
Larry E. Clark, is the Petitioner and the State of Louisiana, Department of
Transportation And Development is the Respondent. L & M Hair Care Products,
Inc., is a party to one of the consolidated cases, but it is not a Petitioner herein.
ThereAre Seven (7) Pending Related State and Federal Suits:
(l)Presently pending in the trial court are these four (4) expropriation suits.
After the Appellate Court issued its opinions and a writ application was
denied, Petitioner, realized he had filed the appeal in error. In January 2021,
Petitioner began filing various motions, exceptions and amended Petitions
into these suits, seeking nullity of the January 15, 2020 opinions issued by
the LA 2nd Circuit Court of Appeal, based upon the lack ofjurisdiction, of
both of the lower state courts, and added Bribery, Fraud, and Federal Civil
Rights Violations.
(2) Also Pending, Larry E. Clark, Sr. v. John B. Edwards, Governor of
Louisiana, et al., No. 3:21-cv-177, (U. S. District Court, M. Dist. of
Louisiana, Baton Rouge, LA 03/29/2021), seeking for: Prospective
Injunctive Relief; Prospective Declaratory Relief; and A Writ of Mandamus,
filed to stop attempted Bribery and/or a Kick Back scheme and/or Fraud and
as a result the Opinions of the Louisiana Second Circuit ruled to affirmed res
judicata in part based upon previously issued federal judgments, even
though the U. S. 5lh Circuit Court of Appeal on June 30, 1999 issued
unreported and unpublished Opinion No. 97-30715, Clark et., al., v. Pena,
et., al.. ruling that the lower federal courts had no jurisdiction in these
originally filed state court matters (See Pet. Appendix -M, N, O).
(3) In addition, pending, a March 1996 suit, Larry E. Clark, and L & M Hair
Care Products, Inc., v. Frank Denton, Secretary for the Louisiana
Department of Transportation And Development et., al., #425,690-D, 19th
JDC, of East Baton Rouge Parish, requesting: a writ of mandamus; nullity
of many previously issued state court civil judgments; an exception of res
judicata be declared unconstitutional under the 5th and 14lh Amendment of
the U. S. Constitution; and for federal civil rights violations, etc.
li.

(4)Furthermore, presently pending is an originally filed May 1990 state court
legal malpractice suit #362,381, against many of Petitioner’s former
attorneys and their law firms; which was later amended to add federal civil
rights violations; and the Respondent and the Respondent’s officials, and/or
employees and many others were added. See: Larry E. Clark and L & M
Hair Care Products. Inc., v. Mangham. Hardy. Rolfs And Abadie, et., ah.
No. 362,381 1st JDC of Caddo Parish, Shreveport, Louisiana; 733 So. 2d 42
(La.App. 2nd Cir. 1999).
Related Closed Cases
(5) A federal mandamus suit, filed June 05, 1996, Larry E. Clark and L & M
Hair Care Products, Inc, v. Frederico Pena, Secretary of the U. S.
Transportation; Rodney Salter, Administrator of the U. S. Department of
Transportation; Frank Denton, Secretary of the Louisiana Department of
Transportation And Development; and James M. Dousay, Administrator of
the Louisiana Department of Transportation And /Development, No. cv961360, U. S. District Court, Western District of Louisiana, ShreveportDivision; unpublished and unreported opinion No.97-30715 (U. S.5,h Cir.
June 30, 1999). See Appendix Nos. M, N, Q.
(6) Dismissed federal suit 97-1266, filed in April 1997 for civil rights violations
and legal malpractice. Larry E. Clark v. George B. Land, et al, No.97-1266,
U. S. District Court, Eastern District of New Orleans, New Orleans,
Louisiana.
(7)Dismissed Without Prejudice Nullity State Court Civil Suit #429,240, filed
in January 1998 to have these expropriation suits declared absolutely void;
to have the October 1995 Judgment and the February 4,1997 Judgment
issued in expropriation suit #363,679 declared void based upon state and
federal constitutional grounds: No Notice of Trial, Bribery, Fraud and
Conspiracy, and for nullity of other related State Court Civil Judgments.
Larry E. Clark and L & M Hair Care Products, Inc., v. State of Louisiana,
Department of Transportation And Development, et al.. No. 429,240, 1st
JDC of Caddo Parish, Shreveport, Louisiana.

in.

(8)Dismissed Without Prejudice federal suit No. cv98-1753, which was part of
the originally filed state court nullity suit, #429,240, 1st JDC of Caddo
Parish, seeking nullity of all the previously issued state court civil
judgments, Larry E. Clark and L & M Hair Care Products, Inc., v. State of
Louisiana, Department of Transportation And Development, et al..1 5
Shreveport, Louisiana removed from the state court to the LJ. S. District
Court, Western District of Louisiana, Shreveport-Division and remanded;
(9)Former federal suit No.cv98-0271, the removed state court legal malpractice
suit, and remanded back to state court, and is presently pending state court,
originally filed July 1990. Larry E. Clark and L & M Hair Care Products,
Inc., v. Mangham, Hardy, Rolfs And Abadie, et., al.. No. 362,381 1st JDC of
Caddo Parish, Shreveport, Louisiana, removed from the state court to the U.
S. District Court, Western District of Louisiana, Shreveport-Division;

IV.

OPINION BELOW
The Louisiana 2nd Circuit Court of Appeal on January 15, 2020 issued
Opinions that affirmed res judicata based upon a non-final absolutely void state
court judgment and/or a void federal court judgment. A Copy of the Ruling
is attached, see (Pet. Appendix - A), and is reported at 289 So.3d 226 (La.App.2nd
Cir. 1/15/20), rehearing denied (Feb. 28, 2020), writ denied, 2020-C-00528 (La.
9/23/20), 301 So.3d 1183, reconsideration denied, 2020-C-00528 (La. 6/01/21),
316 So.3d 830. No state or federal court had Jurisdiction, neither the 2nd Circuit.
JURISDICTION
No Final appealable Judgment been issued in these suits. 28 U. S. C.
Section 1257(a) is the jurisdictional statute for a State Court’s Final Judgment, and
where a law repugnant to federal law is at issue. With No Final Judgment this
Court only has Jurisdiction to consider its Jurisdiction, and of the Court(s) below.
CONSTITUTION AND STATUTORIAL PROVISIONS INVOLVE
1.
2.
3.
4.
5.
6.
7.
8.
9.

The Fifth Amendment of the U. S. Constitution
The Fourteenth Amendment of the U. S. Constitution
28 U. S. C. A. Section 1257 (a)
LSA-R.S. 13:4231
Former LA-C.C. Art. 2286 and Former 3506 (31)
Former Louisiana Code of Civil Procedure Articles: 531 and 641
Louisiana Code of Civil Procedure Articles: 1913,1914, and 1915
Louisiana Code of Civil Procedure Article 1917
LSA-R.S. 48:441 et., seq.
STATEMENT OF THE CASE

Patent on the face of these records and the LORD GOD, reveal that under
l

Art. 1. Section 4., of the LA Constitution, and Expropriation Laws, R. S. 48:441
et., seq., these are four absolutely void Condemnation cases. The 1986 suits, are
void for the lack of an Indispensable Defendant. The 1990 filed expropriation suit
was filed by a corporation without legislative authority. In Re Mansfield v.
Nabors, 135 La. 807, 66 So. 229 (La. 1914). The LA 2nd Circuit on appeal refused
to address such issues. It proceeded to the merits and affirmed the dismissal with
prejudice on res judicata, and in part based upon a federal judgment. But, No Final
judgment has been issued by the Trial Court, and the 2nd Circuit’s ruling, overruled
three separate Opinions of the U. S. 5th Circuit, issued, for related federal suits and
all ruled, no federal court jurisdictionAppendix M, N & O). For decades the
former contract lawyers for the Respondent, and a State Judge had been attempting
to get a $200,000.00, Bribe and/or a Kickback from Petitioner and/or from L & M
Hair Care Products, Inc.( “L& M”). Before the Respondent filed the suits, L & M
had several leases and options on all property expropriated. One lease was
recorded into Public Records, that made L & M an Indispensable party. Then, L &
M’s suit, No. 363,679, was ruled to be an expropriation in: L & M Hair Care Inc.,
V.

State. DOTD. #23,124-CA (La.App.2nd Cir. 12/4/91) 590 So.2d 122; and L&

M Hair Care. Inc, v. State. DOTD. 622 So.2d 1194 (La.App.2"d Cir. 1993), writ
denied, 626 So.2d 1129 (La.1993). The suit was dismissed with prejudice inl997
without the payment of compensation to L & M. All as a result that Petitioner and
L & M wouldn’t agree to pay a Bribe and/or a Kickback. The Respondent’s
2

former contract lawyers and the Trial Judge ambushed Petitioner and L & M by
not serving them with the mandatory citation and service of the notice of
the setting of a jury trial. L & M et. al., v. State, DOTD, 704 So.2d 415(La.2nd
Cir.1997). Afterwards, litigation continues in many other state and federal suits.
In 2017 and/or in 2018, Petitioner filed Petitions into these four suits,
seeking the absolute nullity of all Judgments, based upon: lack of subject matter
jurisdiction, and/or lack personal jurisdiction and/or lack of citation and service,
etc., and later filed a ‘REQUEST FOR NOTICE” requesting written notice on all
Orders and Judgments rendered. The Respondent filed exceptions of res judicata.
A hearing was held on the exception of res judicata in February 2018. In March
2018 a Judgment was signed granting res judicata. Petitioner filed a motion
requesting the exception of res judicata to be declared unconstitutional based
upon the violation of the 5th and 14th Amendments of U. S. Constitution.
Before the start of the hearing, on April 23, 2018, for the motion, Petitioner filed a:
. ..EX PARTE MOTION WITH AN ORDER REQUIRING FOR THIS COURT
TO TAKE JUDICIAL NOTICE OF THE LAWS OF THE UNTIED
STATES; THE LAWS OF THE STATE OF LOUISIANA; AND REQUESTING
FOR THIS COURT TO OBTAIN SUBJECT MATTER JURISDCITION BY
ORDERING THE DOTD TO MAKE L & M A PARTY, ETC., IN THES SUITS”
At the April 2018 hearing, the Trial Court ruled to: reaffirm the granting of res
Judicata it granted in March; to grant Lis Pendens as to Petitioner’s motion filed
regarding the 5th and 14lh Amendment of the Constitution based upon, that, that
same issue was being under review in suit #425,690-D, 19th JDC of East Rouge
3

Parish. However, all the exact same issues were and still is at issue in suit
#425,690-D as well as were and still is in pending suit #362,381, lsE JDC of Caddo
Parish, no ruling was made for the Ex Parte Motion (Appendix - J, K, L).
28 U. S. C. Section 1257(a) provides:
“Final judgments or decrees rendered by the highest court of a State in
which a decision could be had, may be reviewed by the Supreme Court by writ of
certiorari where the validity of a treaty or statute of the United States is drawn in
question or where the validity of a statute of any State is drawn in question on the
ground of its being repugnant to the Constitution, treaties, or laws of the United
States, or where any title, right, privilege, or immunity is specially set up or
claimed under the Constitution or the treaties or statutes of, or any commission
held or authority exercised under, the United States.”
Three Partial Judgments of the Trial Court were served on Petitioner, and were
appealed (Appendix Nos. I, J, & K). On appeal, the Court ruled in pertinent part:
“Before us is a pro se appeal.. .challenging three judgments.” All state Judgments
sustaining res judicata were and still is under review in other pending state court
cases. LSA-C.C.P. Art. 1915 provides in pertinent part:
“B.(l) When a court renders a partial judgment or partial summary judgment or
sustains an exception in part, as to one or more but less than all of the claims,
demands, issues, or theories against a party, whether in an original demand,
reconventional demand, cross-claim, third-party claim, or intervention, the
judgment shall not constitute a final judgment unless it is designated as a final
judgment by the court after an express determination that there is no just reason for
delay.
(2) In the absence of such a determination and designation, any such order or
decision shall not constitute a final judgment for the purpose of an immediate
appeal and may be revised at any time prior to rendition of the judgment
adjudicating all the claims and the rights and liabilities of all the parties.”
In Delahoussaye v. Tulane, 155 So.3d 560 (La.App.4th Cir. 2013), the Court ruled
4

in pertinent parts:
“Because the judgment in question did not dismiss all the plaintiffs' claims against
the Administrators, it falls squarely within the ambit of article 1915 B.....No such
designation appears in the record, nor do the appellants assert that they have sought
or obtained one. We therefore lack appellate jurisdiction.^
In the expropriation case of Grays Harbor Logging Co. v. Coast-Fordney Logging
Co., 243 U. S. 251 (1917), this Court ruled in pertinent part “

The judgment

brought up by the present writ of error not being a final judgment,.....the writ must
be Dismissed

See also: San Diego Co. v. City of San Diego et al., 450 U. S.

621 (1981); Flint v. Ohio. 451 U. S. 619(1981); Jefferson v. City of Tarrant. 522
U. S. 75 (1997);Radio Station Wow Inc., et al v. Johnson. 326 U. S. 120 (1945);
Cox Broadcasting v. Cohn, 420 U. S. 469 (1975); and Steel Co. v. Citizens for
Better Environment, 523 U. S. 83(1998), where an Appellate Court was reverse.
CONCLUSION
Petitioner, prays that his Petition For Writ Of Certiorari be granted, for the
limited purposes, for the consolidated Opinions issued by the Louisiana Second
Circuit Court of Appeal on January 15, 2020 be reverse, for lack ofjurisdiction.
ectfully^gbi^t^d^^
Larry E^C&rk, Pro Se
P. OTBox 76752
Atlanta, GA 30358
(678)754-7324
09/13/2021
Email:clark9853@hotmail.com
5

^

CONTENTS OF THE APPENDIX
EXHIBIT -A: THE CONSOLIDATED OPINIONS OF THE LA 2nd CIRCUIT;
EXHIBIT -B: AN ORDER ISSUED ON 01/28/ 2029 BY THE LA 2 ND
CIRCUIT THAT DENIED PETIONER’S “Declinatory Exception
For Lack of Subject Matter Jurisdiction, and Appellant’s
Requesting For This Appeal Court To Raise Lack Of Non-Joinder
Of Indispensable Party On Its Own Motion, and after considering
the records, the evidence, and all the laws and prior opinions” ;
EXHIBIT - C: AN ORDER ISSUED ON 01/28/2020 BY THE LA 2nd Circuit
THAT DENIED PETITIONER’S FILED MOTION REQUESTING
FOR “For The Full Second Circuit Court of Appeal To Decide
Appellant’s Declinatory Exception For Lack Of Subject Matter
Jurisdiction;
EXHIBIT - D: AN ORDER ISSUED ON 02/28/2020 BY THE LA 2 ND
CIRCUIT THAT DENIED PETITIONER’S “motion to rescue
The panel which rendered the original opinion...”;
EXHIBIT - E: A RULING ISSUED BY ON 02/28/2020 BY FIVE JUDGES OF
THE LA 2nd CIRCUIT DENYING PETITIONER’S
APPLICATION FILED FOR A REHEARING DENYING
PETITIONER’S MOTION FILED FOR A REHEARING;
EXHIBIT - F: A RULING ISSUED BY ON 02/28/2020 BY FIVE JUDGES OF
THE LA 2nd CIRCUIT DENYING PETITIONER’S MOTION
FILED REQUESTING THE ENTIRE 2nd CIRCUIT COURT
OF APPEAL TO DECIDE PETITONER’S MOTION FILED
FOR A REHEARING;
EXHIBIT-G: LOUISIANA SUPREME COURT ON SEPTEMBER 23, 2020
DENYING PETITIONER’S APPLICATION FOR WRIT OF
CERTIORARI;
EXHIBIT -H: LOUISIANA SUPREME COURT ON JUNE 01, 2021
DENYING PETITIONER’S APPLICATION FOR
RECONSIDERATION OF DENYING PETITIONER’S WRIT
OF CERTIORARI;
6

EXHIBIT - I: THE TRIAL COURT INTERLOCUTORY JUDGMENT
FILED ON 03/19/2018 ON RENDERED AND SIGNED ON
03/21/2018 FOR CONSOLIDATES SUIT NOS. 325,511-A;
325,512-A; AND 328,772-A;
EXHIBIT - J: THE TRIAL COURT INTERLOCUTORY JUDGMENT FILED
ON MAY 17, 2018 AND RENDERED AND SIGNED ON
05/29/2018 FOR CONSOLIDATED SUIT NOS. 325,511-A;
325,512-A; AND 328,772-A;
EXHIBIT - K: THE TRIAL COURT INTERLOCUTORY JUDGMENT FILED
ON MAY 17, 2018 AND RENDERED AND SIGNED ON
05/24/2018 FOR SUIT NO. 363,679;
EXHIBIT - L: THE TRANSCRIPT OFTHE HEARING HELD ON APRIL 23,
2018 BY THE TRIAL COURT FOR THESE FOUR
EXPROPRIATION SUITS;
EXHIBIT-M: AN UNPUBLISHED AND UNREPORTED OPINION NO. 9730715 ISSUED ON JUNE 30, 1999 BY THE U. S. 5th CIRCUIT
COURT OF APPEAL, RULING THAT THE LOWER FEDERAL
COURTS HAD NO JURISDICTION IN THE STATE COURT
SUITS AND ISSUING MONEY SANCTIONS AS A RESULT
OF FILING THE SUIT IN FEDERAL COURT.
EXHIBIT -N: UNPUBLISHED AND UNREPORTED OPINION NO. 1130724 ISSUED ON JUNE 12, 2012 BY THE U.S. FIFTH
CIRCUIT RULING AGAIN THAT THE U. S. LOWER
FEDERAL COURT HAD NO JURISDCITION BUT DID HAVE
JURISDICTION TO ISSUE SANCTIONS;
EXHIBIT-O: UNPUBLISHED AND UNREPORTED OPINION NO. 14-31376
ISSUED ON MARCH 17, 2015 BY THE U.S. 5th CIRCUIT
RULING IT HAD NO JURISDCITION TO ISSUE A
MANDAMUS, THAT WAS REQUESTED BY PETITIONER.

7

